APPENDIX la thru 13a
Opinion of the Court of Appeals

n»’

6th Circuit

Case: 18-1751

Document: 48-2

Filed: 06/15/2020

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0183p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Keith Bernard Smith,
Petitioner-Appellant,
>

No. 18-1751

v.

Noah Nagy, Warden,
Respondent-Appellee.

Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:1 l-cv-10261—Arthur J. Tamow, District Judge.
Argued: April 29, 2020
Decided and Filed: June 15, 2020
Before: COLE, Chief Judge; SILER and CLAY, Circuit Judges.
COUNSEL
ARGUED- Wesley R. Abrams, VORYS, SATER, SEYMOUR AND PEASE LLP, Cincinnati,
Ohio for Appellant. Daniel Ping, OFFICE OF THE MICHIGAN ATTORNEY GENERAL,
Lansing, Michigan, for Appellee. ON BRIEF: Wesley R. Abrams, Nathan L. Colvin, VORYS,
SATER, SEYMOUR AND PEASE LLP, Cincinnati, Ohio, for Appellant. Daniel Ping, John S.
Pallas, OFFICE OF THE MICHIGAN ATTORNEY GENERAL, Lansing, Michigan, for
Appellee.
OPINION

COLE, Chief Judge. Keith Bernard Smith, a Michigan prisoner, appeals the denial of his
petition for a writ of habeas corpus under 28 U.S.C. § 2254. He argues that he is entitled to relief

Case: 18-1751

Document: 48-2

No. 18-1751

Filed: 06/15/2020

Smith v. Nagy

Page: 2
Page 2

because: (1) the state court should have granted him a post-trial evidentiary hearing to determine
whether the jury improperly relied on certain prejudicial information in rendering its verdict;
(2) there was insufficient evidence to convict him; and (3) the state and district courts erred in
refusing to consider new evidence that supports his innocence. Because none of Smith’s claims
provides us a basis for exercising our limited authority to grant habeas relief to a state prisoner,
we affirm the denial of the petition.
I.
On the morning of February 15, 2008, Detroit police discovered Annette Ralston, a 58year-old woman, dead in the bedroom of her home. Ralston had suffered several stab wounds to
the head and groin area, slash wounds to the face, and blunt-force wounds to the back of the
head. A severed carotid artery was likely the immediate cause of death. Ralston also exhibited
multiple “defensive-type” cuts and bruises on her hands and wrists, and she was clutching long
brown hair, which was never matched to any particular person. Blood was found throughout
Ralston’s house.
Four days after the discovery of Ralston’s body, police arrested Keith Smith and charged
ft..

him with three crimes in connection with Ralston’s death: first-degree felony murder, firstdegree premeditated murder, and assault with intent to commit armed robbery. At the time that
the police arrested Smith, they also seized Smith’s van and other personal belongings, including
a pair of eyeglasses. The van and eyeglasses were processed for blood evidence, but none was
recovered. No knives or other weapons were recovered from Smith. Overall, there was no
physical evidence linking Smith to Ralston’s death.
At Smith’s trial, two of Smith’s acquaintances—Shayne Dennis and Latoya Evans—
testified that Smith had come over to their house two days after the discovery of Ralston’s body.
At some point during the conversation, Smith admitted that he had “done something very bad”
and proceeded to confess to killing a woman “at a safe house.” (R. 12-4, PagelD 428-29.)
Smith conveyed that he had intended to rob the safe house. To that end, he dropped off the
victim’s son somewhere else and went back to the house with the victim, where he ended up

Case: 18-1751
No. 18-1751

Document: 48-2

Filed: 06/15/2020

Page: 3
Page 3

Smith v. Nagy

killing her while trying to force her to open a safe located in the bedroom. Evans recalled that
Smith had identified the victim as “a fifty year old white lady.” (Id., PagelD 514.)
Lawanda Baytops, Ralston’s housemate, also testified at Smith’s trial. Baytops told the
jury about a “big” jewelry box that Ralston kept in her bedroom, which was “shaped like a safe
but did not have a lock. (R. 12-3, PagelD 325, 350.) Baytops remembered seeing the jewelry
box still in Ralston’s bedroom on the morning Ralston’s body was discovered. Baytops also
recalled that Smith was at the house with Ralston and Ralston’s son on the evening before
Ralston’s body was discovered. Ralston’s son, James White, confirmed that Smith was at the
house that evening and that, later, Smith drove White to his foster home.
The jury convicted Smith of first-degree felony murder and assault with intent to commit
armed robbery but acquitted him of first-degree premeditated murder.

Before sentencing,

however, one juror approached defense counsel and reported that he and other jurors had
changed their vote from “not guilty” to “guilty” based on a belief that Smith would receive a
relatively light sentence for felony murder. Smith moved for new trial or an evidentiary
hearing, but the state trial judge declined to grant either. The trial judge then sentenced Smith to
the mandatory sentence of life imprisonment without possibility of parole for the felony-murder
conviction, see Mich. Comp. Laws § 750.316(1), and a concurrent sentence of five to forty
years’ imprisonment for the assault conviction.

Smith appealed to the Michigan Court of

Appeals, challenging both the sufficiency of the evidence used to convict him and the trial
judge’s denial of an evidentiary hearing and new trial. The Michigan Court of Appeals rejected
Smith’s arguments on the merits and affirmed his convictions. People v. Smith, 2009 WL
3837414, at *2, *4-5 (Mich. Ct. App. Nov. 17, 2009) (per curiam). The Michigan Supreme
Court denied Smith’s pro se application for discretionary review on March 29, 2010, in a
summary order. People v. Smith, 779 N.W.2d 813 (Mich. 2010) (mem.).
On January 13, 2011, Smith, acting pro se, filed a petition for a writ of habeas corpus
under 28 U.S.C. § 2254 in the United States District Court for the Eastern District of Michigan.
Subsequently, in March 2012, Smith moved, and the district court agreed, to hold the petition in
abeyance while Smith returned to state court to exhaust additional claims.

Case: 18-1751
No. 18-1751

Document: 48-2

Filed: 06/15/2020

Smith v. Nagy

Page: 4
Page 4

Smith filed a motion for relief from judgment in the state trial court on June 18, 2012,
which was denied in November 2012. Smith did not appeal. In March 2013, Smith filed a
second motion for relief from judgment in the state trial court. Relevant here, this motion
included a claim for a new trial based on an affidavit that was signed in October 2012. The
affiant, Latoya Evans’s brother Robert Evans, attested that he spoke with Latoya Evans and
Shayne Dennis on the day that Smith allegedly confessed. Robert Evans stated that, according to
his sister and Dennis, Smith had not confessed to any crime but rather only said that the police
wanted to speak with him. Latoya Evans and Shayne Dennis, however, had thought that they
might receive a reward for providing information and resolved to “figure out how to get that
money if they could.” (R. 41 -3, PagelD 1046.) The state court declined to consider the merits of
Smith’s claim for a new trial based on the affidavit, holding that the claim was procedurally
barred on state-law grounds because Smith failed to establish that the affidavit’s allegations were
discovered after he filed his first motion for relief from judgment.
Rather than appealing the state trial court’s decision, Smith filed a motion for a judgment
nunc pro tunc vacating the order denying his first motion for relief from judgment, asserting that
the first motion was filed by a prison paralegal without his knowledge and that he never received
the court orders denying either of his motions for relief from judgment. The state trial court
denied the motion. Smith filed a delayed appeal, which the Michigan Court of Appeals denied
“for lack of merit in the grounds presented.” People v. Smith, No. 331894 (Mich. Ct. App. June
27, 2016) (order). On October 24, 2017, the Michigan Supreme Court denied review in a
summary order. People v. Smith, 902 N.W.2d 419 (Mich. 2017) (mem.).
Having exhausted his state remedies, Smith returned to the district court and amended his
habeas petition in December 2017 to add new claims, including one based on the affidavit of
Robert Evans. On June 12, 2018, the district court denied the amended petition. Like the
Michigan Court of Appeals, the district court rejected Smith’s challenges to the denial of an
evidentiary hearing and to the sufficiency of the evidence. The district court construed Smith’s
claim based on Robert Evans’s affidavit to be an actual innocence claim and rejected it as well,
holding that the affidavit by itself was not sufficient to support a freestanding actual innocence

Case: 18-1751
No. 18-1751

claim.

Document: 48-2

Filed: 06/15/2020

Smith v. Nagy

Page: 5
Page 5

Although the district court denied the amended petition, it granted a certificate of

appealability on all claims. This timely appeal followed.
In this court, Smith filed a pro se brief and moved for appointment of counsel. The
warden responded. We granted Smith’s motion for appointment of counsel, and a second round
of briefing followed.
II.
In habeas proceedings, we review de novo the district court’s legal conclusions and
mixed determinations of law and fact. Bennett v. Brewer, 940 F.3d 279, 286 (6th Cir. 2019).
We typically review the district court’s factual findings for clear error, but when the district court
bases its factual determinations only on trial transcripts and court records—making no credibility
determination or other apparent finding of fact on its own—we review the district court’s factual
conclusions de novo. Id.\ see also Ramonez v. Berghuis, 490 F.3d 482, 486 (6th Cir. 2007);
Dando v. Yukins, 461 F.3d 791, 796 (6th Cir. 2006).
That said, the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
constrains our review of state-court decisions in habeas cases. Under AEDPA, a claim that was
“adjudicated on the merits” in the state court may not be a basis for habeas relief unless its
adjudication:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
The “contrary to” and “unreasonable application” clauses of 28 U.S.C. § 2254(d)(1) have
“independent meaning.” Williams v. Taylor, 529 U.S. 362, 404—05 (2000); accord Bell v. Cone,
535 U.S. 685, 694 (2002). A state-court decision is “contrary to” clearly established federal law
if it (1) applies a rule that contradicts governing Supreme Court law; or (2) confronts a set of
facts “materially indistinguishable” from a decision of the Supreme Court and yet arrives at a

Case: 18-1751

Document: 48-2

No. 18-1751

Filed: 06/15/2020

Smith v. Nagy

Page: 6
Page 6

different result. Williams, 529 U.S. at 405-06. A state-court decision involves an “unreasonable
application” of clearly established federal law if it (1) correctly identifies the governing legal rule
but unreasonably applies it to the facts of the instant case; or (2) either unreasonably extends an
established legal principle to a new context where it should not apply or unreasonably refuses to
extend that principle to a new context where it should apply. Id. at 407. We analyze the state
court’s adjudication of mixed questions of law and fact under the “unreasonable application”
prong of AEDPA. Jackson v. Bradshaw, 681 F.3d 753, 760 (6th Cir. 2012).
The Supreme Court has emphasized that “an unreasonable application of federal law is
different from an incorrect application of federal law.” Williams, 529 U.S. at 410. Subsequent
Supreme Court decisions have interpreted this directive to mean that an unreasonable application
“must be ‘objectively unreasonable,’ not merely wrong; even ‘clear error’ will not suffice.”
White v. Woodall, 572 U.S. 415, 419 (2014) (quoting Lockyer v. Andrade, 538 U.S. 63, 75-76
(2003)). AEDPA “stops short of imposing a complete bar on federal-court relitigation of claims
already rejected in state proceedings.”

Harrington v. Richter, 562 U.S. 86, 102 (2011).

Nevertheless, the state court’s error must be “well understood and comprehended in existing law
beyond any possibility for fairminded disagreement.” Id. at 103.
III.
Smith raises three claims on appeal. First, he contends that the state court acted contrary
to or unreasonably applied clearly established federal law by denying him an evidentiary hearing
to determine whether the jury improperly relied on certain prejudicial information in rendering
its verdict. Second, he contends that the state court unreasonably applied clearly established
federal law in concluding that there was sufficient evidence to convict him of felony murder and
assault. Third, he contends that the state and district courts erred in refusing to consider the
affidavit of Robert Evans. We address each claim in turn.
A.
The Sixth Amendment to the United States Constitution guarantees a criminal defendant
the right to a trial “by an impartial jury.” U.S. Const, amend. VI. This guarantee requires a jury

Case: 18-1751
No. 18-1751

Document: 48-2

Filed: 06/15/2020

Page 7

Smith v. Nagy

to arrive at its verdict “based upon the evidence developed at the trial.

Page: 7

Turner v. Louisiana, 379

U.S. 466, 472 (1965) (quoting Irvin v. Dowd, 366 U.S. 717, 722 (1961)).
Under the Supreme Court’s decision in Remmer v. United States, it is clearly established
that “a trial court, faced with an indication of jury bias, must conduct a hearing with all
interested parties permitted to participate.’” United States v. Owens, 426 F.3d 800, 805 (6th Cir.
2005) (quoting Remmer v. United States, 347 U.S. 227, 230 (1954)); see also Smith v. Phillips,
455 U.S. 209, 215 (1982) (“This Court has long held that the remedy for allegations of juror
partiality is a hearing in which the defendant has the opportunity to prove actual bias.”).
Although a defendant “must do more than simply raise the possibility of bias” to be entitled to a
Remmer hearing, “a ‘colorable claim of extraneous influence’” is sufficient. Owens, 426 F.3d at
805 (quoting United States v. Davis, 111 F.3d 552, 557 (6th Cir. 1999)). Once the defendant
raises a colorable claim of extraneous influence, the trial court “must hold a Remmer hearing ‘to
afford the defendant an opportunity to establish actual bias.’” United States v. Lanier, 810 F.3d
546, 549 (6th Cir. 2017) (quoting Davis, 111 F.3d at 557).
The requirements of Remmer exist alongside the no-impeachment rule embodied in
Federal Rule of Evidence 606(b), which limits the extent to which juror testimony may be used
as evidence to impeach a jury verdict. Rule 606(b) provides that [djuring an inquiry into the
validity of a verdict or indictment, a juror may not testify about any statement made or incident
that occurred during the jury’s deliberations; the effect of anything on that juror’s or another
juror’s vote; or any juror’s mental processes concerning the verdict or indictment.” Fed. R. Evid.
606(b)(1). The rule contains several important exceptions, including when a juror’s testimony
relates to whether “extraneous prejudicial information was improperly brought to the jury’s
attention” or whether “an outside influence was improperly brought to bear on any juror.” Id.
606(b)(2)(A)-(B). Subject to the express exceptions in section (b)(2), however, Rule 606(b)
“prohibits] the use of any evidence of juror deliberations” to impeach a jury verdict. Warger v.
Shauers, 574 U.S. 40, 48 (2014). Michigan has a similar no-impeachment rule. See Mich. R.
Evid. 606(b); see also People v. Budzyn, 566 N.W.2d 229, 236 (Mich. 1997) (“[OJral testimony

Case: 18-1751

Document: 48-2

Filed: 06/15/2020

Smith v. Nagy

No. 18-1751

Page: 8
Page 8

or affidavits may only be received on extraneous or outside errors, such as undue influence by
outside parties.”).1
The no-impeachment rule is grounded in “[substantial policy considerations,” such as
encouraging “full and frank discussion in the jury room,” ensuring the finality of verdicts, and,
overall, preserving the integrity of the jury system. See Tanner v. United States, 483 U.S. 107,
119-21 (1987).

Accordingly, the Supreme Court has noted that the no-impeachment rule

“harmonize[s] with,” rather than detracts from, the holding of Remmer, which also is based on
the principle that “the integrity of jury proceedings must not be jeopardized by unauthorized
invasions.” Id. at 120 (quoting Remmer, 347 U.S. at 229).
We similarly have observed that the no-impeachment rule, including its exceptions, seeks
“to balance the preservation of the integrity of the jury system and the rights of the defendant.”
United States v. Logan, 250 F.3d 350, 380 (6th Cir. 2001), superseded on other grounds by
statute as recognized in McAuliffe v. United States, 514 F. App’x 542, 549 (6th Cir. 2013). This
balance means that “if [a] case involves an extraneous or external influence on the jury, then a
post-verdict interrogation of jurors is permitted in order to adequately protect the defendant’s
constitutional rights.”

Id.

But if the case instead involves an “internal influence,” the

constitution does not require post-verdict interrogation of jurors.

Id.; see also Garcia v.

Andrews, 488 F.3d 370, 375 (6th Cir. 2007) (“[A]n evidentiary hearing delving into allegations
of juror misconduct is required only where ‘extrinsic influence or relationships have tainted the
deliberations.’” (quoting Tanner, 483 U.S. at 120)).2

1 Michigan Rule of Evidence 606 was amended in 2012 to make it consistent with Federal Rule of Evidence
606. Mich. R. Evid. 606, Staff Comment to 2012 Amendment. At the time the Michigan Court of Appeals
considered the merits of Smith’s case in 2009, there was no Michigan counterpart to Federal Rule of Evidence
606(b). Smith, 2009 WL 3837414, at *2 n.l. Rather, Michigan’s no-impeachment rule at the time was judicially
created. See Budzyn, 566 N.W.2d at 236; Hoffman v. Monroe Pub. Sch., 292 N.W.2d 542, 545 (Mich. Ct. App.
1980).
2The Supreme Court has recognized one circumstance in which application of the no-impeachment rule
would violate a defendant’s Sixth Amendment rights: “where a juror makes a clear statement that indicates he or she
relied on racial stereotypes or animus to convict a criminal defendant.” Peha-Rodriguez v. Colorado, 137 S. Ct.
855, 869 (2017). In carving out this “constitutional exception for evidence of racial bias,” id. at 865, the Supreme
Court concluded that such bias is “a familiar and recurring evil that, if left unaddressed, would risk systemic injury
to the administration of justice,” id. at 868. The Supreme Court moreover concluded that other safeguards in the

Case: 18-1751
No. 18-1751

Document: 48-2

Filed: 06/15/2020

Page: 9

Smith v. Nagy

Page 9

The distinction between external and internal influences is therefore critical. In Tanner,
the Supreme Court decided that allegations of jurors being intoxicated during the trial related to
an internal influence. Tanner, 483 U.S. at 116-26. Focusing on “the nature of the allegation”
rather than the physical location of the jurors at the time the alleged misconduct occurred, id. at
117, the Tanner Court distinguished cases where a bribe was offered to a juror, id. (citing
Remmer, 347 U.S. at 228-30); where a court bailiff made comments about the defendant in the
presence of the jury, id. (citing Parker v. Gladden, 385 U.S. 363, 365 (1966) (per curiam));
where a juror submitted an employment application to the prosecutor’s office during the trial, id.
(citing Phillips, 455 U.S. at 209); and where jurors brought newspaper articles about the case
into the jury room, id. at 118 (citing United States v. Thomas, 463 F.2d 1061 (7th Cir. 1972)).
Instead, the Court likened the circumstances in Tanner to a claim that a juror had a psychological
disorder, id. at 118-19 (discussing United States v. Dioguardi, 492 F.2d 70 (2d Cir. 1974)); or a
claim that a juror did not understand English, id. at 119 (citing United States v. Pellegrini, 441 F.
Supp. 1367 (E.D. Pa. 1977), aff’d without opinion, 586 F.2d 836 (3d Cir. 1978) (table)). More
recently, the Supreme Court unanimously decided that alleged bias based on a juror’s own
personal experiences also constituted an internal influence.

Warger, 574 U.S. at 51-52.

“‘External’ matters include publicity and information related specifically to the case the jurors
are meant to decide,” the Court explained, “while ‘internal’ matters include the general body of
experiences that jurors are understood to bring with them to the jury room.” Id. at 51.
Likewise, we have explained that an external influence “must either relate to the case that
the jurors are deciding or be physically brought to the jury room or disseminated to the jury.”
Thompson v. Parker, 867 F.3d 641, 648 (6th Cir. 2017).

Considerations based on jurors’

“general knowledge” or “their own wisdom, experience, and common sense” do not constitute
external influences. Id. at 647-48 (internal quotation marks and citation omitted). Thus, we
found an external influence where jurors looked up the defendant’s Facebook profile and
performed a Google search for information relating to issues in the case. Ewing v. Horton,
914 F.3d 1027, 1029-30 (6th Cir. 2019). But we found no external influence where a jury

trial process—for instance, voir dire—“may prove insufficient” at revealing racial bias. Id. at 868-69. Smith does
not contend that Pena-Rodriguez applies here.

Case: 18-1751
No. 18-1751

Document: 48-2

Filed: 06/15/2020

Page: 10
Page 10

Smith v. Nagy

decided to sentence a defendant to death after discussing a news account of a different defendant
who had committed murder after being paroled. Thompson, 867 F.3d at 646-49.
Here, Smith claims that there was an improper external influence on the jury because
jurors allegedly changed their votes from “not guilty” to “guilty” based on the belief that Smith
would receive a relatively light sentence for felony murder. The state trial court, after hearing
arguments by counsel on both sides, denied Smith’s request for a Remmer hearing.

The

Michigan Court of Appeals affirmed the trial court’s ruling, reasoning that Smith had made “no
allegation that a party outside the jury panel approached a member of the jury and provided
information on a possible sentence” and that, moreover, “the possible penalty for conviction has
no bearing on whether the evidence presented at trial could establish each of the necessary
elements of the charged crimes.” Smith, 2009 WL 3837414, at *2. The Michigan Supreme
Court denied discretionary review in a summary order.

779 N.W.2d at 813.

We therefore

review the decision of the Michigan Court of Appeals, as it is the last explained state-court
decision. See Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018); see also Guilmette v. Howes, 624
F.3d 286, 291 (6th Cir. 2010) (en banc) (“We must... look to the last reasoned state court
opinion to determine the basis for the state court’s rejection of [the petitioner’s] claim.”). And
because the Michigan Court of Appeals adjudicated Smith’s claim on the merits, we apply
AEDPA’s required deference. See 28 U.S.C. § 2254(d).
Smith first argues that the Michigan Court of Appeals applied the wrong legal standard,
and thus, its decision is “contrary to” clearly established federal law. In particular, Smith argues
that the state court focused on whether he was entitled to a new trial, rather than on whether he
was entitled to a Remmer hearing at which he would have the opportunity to show he was
entitled to a new trial. It is true that the standard for obtaining a new trial is distinct from the
standard for obtaining a Remmer hearing: a defendant must show actual prejudice to be entitled
to a new trial, whereas the defendant only has to establish some likelihood of prejudice to be
entitled to a Remmer hearing. Phillips, 455 U.S. at 217—18, 221; see also, e.g., Ewing, 914 F.3d
at 1030-31; United States v. Harris, 881 F.3d 945, 953-54 (6th Cir. 2018); Davis, 177 F.3d at
557. Thus, if the Michigan Court of Appeals had held that Smith was not entitled to a Remmer

Case: 18-1751
No. 18-1751

Document: 48-2

Filed: 06/15/2020

Smith v. Nagy

Page: 11
Page 11

hearing simply because he had failed to establish actual prejudice, such a decision would have
been contrary to clearly established federal law.
The crux of the Michigan Court of Appeals’s decision, however, is not that Smith failed
to establish actual prejudice but rather that he failed to allege that the jury’s information on
possible punishment came from a source outside of the jury room.

See Smith, 2009 WL

3837414, at *2. In holding that the information on possible punishment needed to have involved
an outside source, the Michigan Court of Appeals rejected the view that consideration of possible
punishment by the jury is necessarily extraneous. See id.
Smith argues that the Michigan Court of Appeals “misconstrued,” and thus unreasonably
applied, federal law in concluding that the jury’s consideration of punishment was not
necessarily extraneous. He does not contend that there is a Supreme Court decision establishing
that a jury’s consideration of possible punishment is in itself extraneous or otherwise
unconstitutional, but rather analogizes to decisions from this and other circuits applying Remmer,
Tanner, and their progeny. These decisions are all distinguishable.
First, Smith points to United States v. Martinez, 14 F.3d 543, 550—52 (11th Cir. 1994),
where the Eleventh Circuit, on direct appeal, reversed the defendant’s convictions and remanded
for a new trial partly because the jury had considered information about the defendant’s possible
sentence. But in Martinez, there was clear indication that the information on sentencing came
from an outside source: a newspaper article that one of the jurors had seen and then discussed in
the jury room. Id. at 547. There is no similar indication in this case. Additionally, the jury in
Martinez had used a dictionary to define terms that arose during deliberations, watched news
accounts of the trial on television, and regularly brought newspapers reporting trial events into
the jury room. Id. at 550. There is no allegation that anything of that sort happened here.
Second, Smith points to United States v. Herndon, 156 F.3d 629 (6th Cir. 1998). In
Herndon, also a case on direct appeal, we remanded for a Remmer hearing because one of the
jurors allegedly had prior business dealings with the defendant. Id. at 636—38. We held that
such a circumstance constituted an external influence because it “derived from specific

Case: 18-1751
No. 18-1751

Document: 48-2

Filed: 06/15/2020

Smith v. Nagy

Page: 12
Page 12

knowledge about or a relationship with either the parties or their witnesses.” Id. at 636. Nothing
indicates that any such knowledge or relationship exists here.
Third, Smith directs our attention to United States v. Harris, 881 F.3d 945, 952-54 (6th
Cir. 2018), another case on direct appeal where we remanded for a Remmer hearing. In Harris,
although some question remained as to whether actual prejudice existed, there was “credible
evidence” that the live-in girlfriend of one of the jurors had discovered and viewed the
defendant’s Linkedln profile, likely after searching for the defendant on Google. Id. at 953-54.
Here, in contrast, there is nothing suggesting that the information the jury considered regarding
punishment came from a similar external source.
For the same reason, the other cases to which Smith calls our attention are
distinguishable.

See Ewing, 914 F.3d at 1029-30 (jury allegedly discussed the defendant’s

Facebook profile and used Google to search for information related to the case); Oliver v.
Quarterman, 541 F.3d 329, 339—40 (5th Cir. 2008) (jury allegedly consulted Bible passages in
deciding whether to impose the death sentence); Doan v. Brigano, 237 F.3d 722, 735-36 (6th
Cir. 2001) (juror allegedly conducted an experiment at home to test claims made during the
defendant’s testimony), abrogated on other grounds by Wiggins v. Smith, 539 U.S. 510, 534
(2003); United States v. Aguirre, 108 F.3d 1284, 1288 (10th Cir. 1997) (jury, in deciding
whether to convict the defendant of conspiracy to distribute drugs, allegedly used a dictionary to
look up the meaning of the words “distribution” and “pontificate”). None of the cases that Smith
cites shows that the Michigan Court of Appeals unreasonably applied clearly established federal
law.
Instead, we find the Fourth Circuit’s decision in Fullwood v. Lee, 290 F.3d 663 (4th Cir.
2002), to be instructive.

In that case, the defendant argued that the jury was improperly

influenced in deciding whether to impose the death penalty because it allegedly became aware of
several pieces of information:

(1) the defendant had previously been sentenced to death by

another jury, but the sentence had been reversed; (2) any decision it made would be appealed;
and (3) if it handed down a life sentence, the defendant would be eligible for parole within 10 to
15 years.

Id. at 682-83.

The Fourth Circuit, on habeas review, concluded that the jury’s

awareness of the defendant’s prior death sentence was necessarily an external influence, even

Case: 18-1751

Document: 48-2

No. 18-1751

Filed: 06/15/2020

Smith v. Nagy

Page: 13
Page 13

though the source of the information was never identified, because it “was not revealed to the
jury during trial” and “not the kind of general information that jurors bring with them into
deliberations.” Id. at 682. In contrast, the Fourth Circuit decided that the jury’s awareness of the
defendant’s ability to appeal and the possibility of parole was not necessarily an external
influence because such awareness derived from general information and “preconceived notions
about the legal process.” Id. at 683-84.
In this case, we find it conceivable that the jurors could have reached the mistaken
conclusion that felony murder carries a relatively light sentence based simply upon preconceived
notions or beliefs about the legal system. In other words, the jurors’ information about Smith’s
possible sentence reasonably falls within the realm of “general information that jurors bring with
them into deliberations.” See id. at 682. Accordingly, it was not unreasonable for the Michigan
Court of Appeals to conclude that the jury’s consideration of punishment was not necessarily
extraneous and that, absent a colorable allegation that the information came from some outside
source, Smith was not entitled to a Remmer hearing.
Smith, though, makes one final argument.

He suggests that he did, in fact, raise a

colorable claim that the specific information the jury considered regarding punishment came
from an outside source. He focuses on one particular statement that his trial counsel made to the
trial judge at the argument on whether to grant an evidentiary hearing:
The case law is if it was internal consideration, we wouldn’t even be here. It has
to be something that is external to the jury, and their deliberations. It’s not that
they talked about something inside, [it’s] that they had something from outside
that was introduced.
(R. 12-6, PagelD 612.) Based on this statement, Smith contends that his trial counsel raised a
colorable claim that the information regarding possible punishment came from an outside source.
But trial counsel’s statements at other points in the argument suggest otherwise. Indeed, at the
beginning of the argument, trial counsel plainly stated, “We would submit the extrinsic influence
here was penalty that was discussed improperly by the jury.”

{Id., PagelD 609.)

Thus,

examining trial counsel’s argument as a whole, we find that it was not unreasonable for the
Michigan Court of Appeals to conclude that Smith failed to allege an outside source and,

Case: 18-1751

Document: 48-2

Filed: 06/15/2020

Page: 14
Page 14

Smith v. Nagy

No. 18-1751

therefore, failed to make a colorable claim of extraneous influence.

We affirm the district

court’s denial of habeas relief with respect to Smith’s claim of jury bias.
B.
Smith’s next claim for relief is that his convictions for felony murder and assault rest on
insufficient evidence.

Specifically, he argues that there was insufficient evidence both to

identify him as the perpetrator and to establish intent to commit a felony

in this case, larceny.

The warden, as an initial matter, asserts that Smith did not exhaust part of this claim because he
did not present to the state courts the specific argument that there was insufficient evidence of his
intent to commit a larceny. Our disposition of Smith’s claim, however, does not require us to
decide this exhaustion issue.

Therefore, we proceed directly to the merits.

See 28 U.S.C.

§ 2254(b)(2) (“An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available in the courts of the
State.”).
It is well established that the Due Process Clause of the Fourteenth Amendment “protects
the accused against conviction except upon proof beyond a reasonable doubt of every fact
necessary to constitute the crime with which he [or she] is charged.

In re Winship, 397 U.S.

358, 364 (1970). In evaluating a claim that a defendant has been convicted based on insufficient
evidence, we consider “whether, after viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the essential elements of the crime
beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979). This standard
“must be applied with explicit reference to the substantive elements of the criminal offense as
defined by state law.” Id. at 324 n.16. “[W]e do not reweigh the evidence, re-evaluate the
credibility of witnesses, or substitute our judgment for that of the jury.” Brown v. Konteh, 567
F.3d 191, 205 (6th Cir. 2009).
Additionally, where, as here, the state court adjudicated the claim on the merits, there is a
second layer of deference mandated by AEDPA. That is, even if we were to conclude that no
rational trier of fact could have found the defendant guilty beyond a reasonable doubt, we “must

Case: 18-1751

Document: 48-2

No. 18-1751

Filed: 06/15/2020

Page: 15
Page 15

Smith v. Nagy

still defer to the state appellate court’s sufficiency determination as long as it is not
unreasonable.” Id. (emphasis omitted).
The Michigan Court of Appeals determined that, viewing the evidence in the light most
favorable to the prosecution, “a rational trier of fact could find that the essential elements of the
crime were proven beyond reasonable doubt” in Smith’s case. Smith, 2009 WL 3837414, at *4.
The court reasoned that, as a general matter, “circumstantial evidence and the reasonable
inferences it engenders are sufficient to support a conviction, provided the prosecution meets its
burden of proof.” Id. It concluded that the circumstantial evidence in this case—namely, the
testimony from Dennis and Evans—was sufficient to support Smith’s convictions, and it
declined to “second-guess” the jury’s determination that Dennis and Evans were credible. Id.
Smith argues that the testimony from Dennis and Evans, even viewed in the light most
favorable to the prosecution, could not engender a reasonable inference that Smith killed Ralston
with the intent to commit a larceny. Smith gives several reasons: Ralston had no safe in her
house and did not live at a drug safe house; she had no money; and nothing of value, including
Ralston’s jewelry box, was taken from the house.
These arguments, however, are reasons to reweigh the testimony of Dennis and Evans,
not to conclude that such evidence is insufficient.

According to Dennis and Evans, Smith

confessed to killing a woman in her fifties while attempting to rob her house, and Ralston’s son
and housemate both confirmed that Smith was at the house on the evening before Ralston’s body
was discovered. Smith now provides reasons that the jury could have disbelieved or discounted
Dennis’s and Evans’s testimony as inconsistent with other evidence in the record. But a court
evaluating a claim of insufficient evidence is not at liberty to reweigh the evidence or reassess
the credibility of witnesses. Brown, 567 F.3d at 205; see also Martin v. Mitchell, 280 F.3d 594,
618 (6th Cir. 2002) (“[Ajttacks on witness credibility are simply challenges to the quality of the
government’s evidence and not to the sufficiency of the evidence,

(quoting United States v.

Adamo, 742 F.2d 927, 935 (6th Cir. 1984))). Given that the Michigan Court of Appeals had to
resolve all conflicts in favor of the prosecution and accept the jury’s determination that Dennis
and Evans were credible, it was not unreasonable for that court to conclude that a rational juror

Case: 18-1751

Document: 48-2

Filed: 06/15/2020

Smith v. Nagy

No. 18-1751

Page: 16
Page 16

could have convicted Smith. Therefore, we affirm the district court’s denial of habeas relief with
respect to Smith’s claim of insufficient evidence.
C.
Last, Smith claims that the state and district courts erred in refusing to consider the
affidavit of Robert Evans.
1.
We start by clarifying what it is that Smith is claiming. Smith refers to his claim as one
of “actual innocence” and cites to the Supreme Court’s decision in Schlup v. Delo, 513 U.S. 298
(1995). But the claim recognized in Schlup “is procedural, rather than substantive,” meaning
that it “does not by itself provide a basis for relief.” Id. at 314-15. Rather, a Schlup claim
provides a “gateway” for the habeas petitioner “to have his [or her] otherwise barred
constitutional claim considered on the merits.” Id. at 315 (quoting Herrera v. Collins, 506 U.S.
390, 404 (1993)).

Smith does not identify any substantive federal constitutional claim

underlying his alleged “actual innocence” claim. Thus, his claim is not a “gateway” actual
innocence claim under Schlup.
Smith’s claim also cannot be reviewed as a supplemental sufficiency-of-the-evidence
claim.

Smith tried to raise such a claim in his amended petition before the district court,

asserting that “based on newly discovered evidence, there was insufficient evidence to sustain
[his] convictions for felony-murder and assault with intent to rob while armed beyond a
reasonable doubt.” (R. 38, PagelD 906.) Smith argued that this claim of newly discovered
evidence “should be addressed together” with his separate sufficiency-of-the-evidence claim—
essentially arguing that the affidavit makes the already shaky evidence upon which he was
convicted even shakier. (Id., PagelD 907.) But a reviewing court evaluating a sufficiency-ofthe-evidence claim cannot consider newly discovered evidence. Rather, the court must consider
“the trial testimony and exhibits in the light most favorable to the prosecution,” and may not
reassess the weight of the evidence or the credibility of witnesses. Brown, 567 F.3d at 205; see
also Jackson, 443 U.S. 318-19; cf. Schlup, 513 U.S. at 330 (distinguishing between a claim of
insufficient evidence under Jackson, which prohibits assessments of witness credibility, and a

Case: 18-1751

No. 18-1751

Document: 48-2

Filed: 06/15/2020

Page: 17

Smith v. Nagy

Page 17

gateway actual innocence claim under Schlup, which allows such assessments based on newly
presented evidence).

Because Smith’s claim of newly discovered evidence requires the

reviewing court to reweigh evidence and make a probabilistic determination of what a reasonable
trier of fact likely would do, it cannot be assessed as a supplemental sufficiency-of-the-evidence
claim.
We accordingly agree with the district court that Smith’s claim based on the affidavit of
Robert Evans is a freestanding actual innocence claim.

The Supreme Court has defined a

freestanding actual innocence claim as one that “argues that [the petitioner] is entitled to habeas
relief because newly discovered evidence shows that [the petitioner’s] conviction is factually
incorrect.” Herrera, 506 U.S. at 404. Smith’s claim based on the affidavit is exactly that.
2.
Next, we turn to the warden’s arguments that Smith’s claim is untimely and procedurally
defaulted. The warden argues that because Smith’s claim based on the affidavit was not raised in
federal court until Smith amended his petition in December 2017, and because the claim was not
otherwise tolled, it is barred under the one-year statute of limitations.

See 28 U.S.C.

§ 2244(d)(1). The warden also argues that because the state court relied on state procedural
grounds to deny Smith’s claim for a new trial based on the affidavit, Smith’s claim here is
procedurally barred. The district court acknowledged the warden’s procedural arguments but
decided to deny Smith’s claim on the merits.
Although issues of timeliness and procedural default in habeas proceedings ordinarily
should be addressed first, those issues do not affect our jurisdiction. Day v. McDonough, 547
U.S. 198, 205 (2006); Trest v. Cain, 522 U.S. 87, 89 (1997). Therefore, we may sometimes
reach the merits of a petitioner’s claim, particularly when the merits are easily resolvable against
the petitioner while the procedural issues are complicated.. See Lambrix v. Singletary, 520 U.S.
518, 525 (1997); see also, e.g., Bales v. Bell, 788 F.3d 568, 573 (6th Cir. 2015); Mahdi v. Bagley,
522 F.3d 631, 635 (6th Cir. 2008); Hudson v. Jones, 351 F.3d 212, 215-16 (6th Cir. 2003).
Here, resolution of the procedural issues is not necessary to our disposition of Smith’s

Case: 18-1751

Document: 48-2

No. 18-1751

Filed: 06/15/2020

Smith v. Nagy

Page: 18
Page 18

freestanding actual innocence claim, and we agree with the district court that the claim is better
resolved on the merits. We turn there now.
3.
The Supreme Court has not answered whether freestanding actual innocence claims are
cognizable on habeas review. See House v. Bell, 547 U.S. 518, 555 (2006) (expressly declining
to resolve the issue). Our circuit, however, has “repeatedly indicated that such claims are not
cognizable on habeas.”

Cress v. Palmer, 484 F.3d 844, 854 (6th Cir. 2007) (listing cases).

Smith nevertheless invites us to resolve this question in his favor.
Even if we were to recognize a freestanding actual innocence claim, Smith’s claim based
on the affidavit would not succeed. The Supreme Court has noted that if freestanding actual
innocence claims were cognizable, the petitioner’s burden “would necessarily be extraordinarily
high.” Herrera, 506 U.S. at 417. This is because such a claim, unattached to any other claim of
constitutional error, presupposes that the petitioner “was tried before a jury of his [or her] peers,
with the full panoply of protections that our Constitution affords criminal defendants.” Id. at 419
(O’Connor, J., concurring).

Accordingly, the Ninth Circuit has established that a petitioner

asserting a freestanding actual innocence claim “must go beyond demonstrating doubt about his
[or her] guilt” and “must affirmatively prove that he [or she] is probably innocent.” Carriger v.
Stewart, 132 F.3d 463, 476 (9th Cir. 1997) (en banc).
Without the ability to make credibility determinations, we conclude that Smith does not
prove that he is probably innocent.

To be sure, the affidavit of Robert Evans seriously

undermines the reliability of Dennis’s and Evans’s testimony, but it falls short of affirmatively
proving that Smith is innocent. The affidavit does not provide Smith with an alibi, show that
someone else killed Ralston, or otherwise “preclude any possibility of [Smith’s] guilt.” See id. at
477. Instead, it simply gives us further reason to doubt Dennis’s and Evans’s testimony. Thus,
Smith’s claim based on the affidavit of Robert Evans is not a basis on which we can grant him
habeas relief.

Case: 18-1751
No. 18-1751

Document: 48-2

Filed: 06/15/2020

Smith v. Nagy

Page: 19
Page 19

IV.
For the reasons above, we affirm the district court’s denial of Smith s petition for a writ
of habeas corpus.

APPENDIX' 14a thru 30a

0

Opinion of the United States District Court
for the Eastern District of Michigan

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1190

Page 1 of 17

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
KEITH BERNARD SMITH,
Petitioner,

Civil No. 2:11-CV-10261
HONORABLE ARTHUR J. TARNOW
UNITED STATES DISTRICT JUDGE

v.
KEVIN LINDSEY,
Respondent,

OPINION AND ORDER DENYING THE PETITION FOR WRIT OF HABEAS
CORPUS AND GRANTING A CERTIFICATE OF APPEALABILITY AND
LEAVE TO APPEAL IN FORMA PAUPERIS
Keith Bernard Smith, (“Petitioner”), confined at the Cotton Correctional
Facility in Jackson, Michigan, filed a petition for writ of habeas corpus pursuant to
28 U.S.C. § 2254. 1 In his pro se application, petitioner challenges his convictions
for first-degree felony murder, M.C.L.A. 750.316(b), and assault with intent to rob
while armed, M.C.L.A. 750.89. For the reasons that follow, the petition for writ of
habeas corpus is DENIED.

1

When petitioner originally filed his petition for writ of habeas corpus, he
was incarcerated at the Bellamy Creek Correctional Facility, but has since been
transferred to the Cotton Correctional Facility. The only proper respondent in a
habeas case is the habeas petitioner’s custodian, which in the case of an
incarcerated habeas petitioner would be the warden of the facility where the
petitioner is incarcerated. See Edwards Johns, 450 F. Supp. 2d 755, 757 (E.D.
Mich. 2006); See also Rule 2(a), 28 foil. U.S.C. § 2254. Therefore, the Court
substitutes Warden Kevin Lindsey in the caption.
1

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1191

Page 2 of 17

I. Background
Petitioner was convicted of the above offenses following a jury trial in the
Wayne County County Circuit Court. This Court recites verbatim the relevant
facts relied upon by the Michigan Court of Appeals, which are presumed correct
on habeas review pursuant to 28 U.S.C. § 2254(e)(1). See Wagner v. Smith, 581
F.3d 410, 413 (6th Cir. 2009):
Defendant’s convictions arose as the result of the death of Annette
Ralston. An autopsy revealed Ralston died of a combination of multiple
stab, incised, and blunt force wounds, with the most immediate cause
of death likely being a severing of her left carotid artery. Defendant had
been acquainted with the victim for a period of a few weeks prior to her
death and he was often seen at her residence. The victim’s 15-year-old
son and the victim’s roommate both testified that defendant was
present in the victim’s home the evening before her body was
discovered.
At trial, two witnesses familiar with defendant testified that he had
arrived at their home a few days after the murder. At some point during
their conversation, defendant told both witnesses that he had done a
very bad thing and eventually admitted that he had killed a woman as
part of a robbery attempt. Both witnesses testified that defendant
provided details of the murder, including that he had used a knife and
had driven the victim’s son to his foster home prior to the murder. The
latter assertion was confirmed by the son at trial.
People v. Smith, No. 286701,2009 WL 3837414, at * 1 (Mich. Ct. App. Nov.
17, 2009).
Petitioner’s conviction was affirmed on appeal. Id., Iv. den. 485 Mich. 1130
779 N.W.2d 813(2010).

2

v’

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1192

Page 3 of 17

Petitioner filed a petition for writ of habeas corpus, which was held in
abeyance so that petitioner could return to the state courts to exhaust additional
claims.
A post-conviction motion for relief from judgment was filed on petitioner’s
behalf in the Wayne County Circuit Court. The motion was denied by the trial
court .People v. Smith, No. 08-003328-01-FC (Wayne Cty.Cir.Ct., Nov. 12, 2012).
Petitioner then filed a second motion for relief from judgment, which was
denied as an impermissibly filed successive motion for relief from judgment
pursuant to M.C.R. 6.502(G). People v. Smith, No. 08-003328-01-FC (Wayne
Cty.Cir.Ct., June 14, 2013).
Petitioner filed a motion for the state trial court to vacate its order denying
the first motion for relief from judgment and reissuing its opinion denying his
second motion for relief from judgment. The judge denied the motion. People v.
Smith, No. 08-003328-01-FC (Wayne Cty.Cir.Ct., Nov. 2, 2015).
The Michigan appellate courts denied petitioner leave to appeal. People v.
Smith, No. 331894 (Mich.Ct.App. June 27, 2016); Iv. den. 501 Mich. 901, 902
N.W. 2d 419 (2017).
On January 10, 2018, the Court granted petitioner’s motion to lift the stay
and granted his motion to amend the petition. Petitioner seeks habeas relief on
the following grounds:

3

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1193

Page 4 of 17

I. Petitioner was denied his federal and state constitutional right to a fair
trial by jury when the jurors were affected by extraneous information.
II. The state trial judge deprived Petitioner of his federal and state
constitutional right to a properly instructed jury.
III. There was insufficient evidence to support Petitioner’s convictions
for felony-murder and assault with intent to rob while armed.
IV. The state trial judge deprived Petitioner of his rights to due process
and an impartial jury when she allowed the jurors to submit questions
for witnesses during the course of trial.
V. The suppression of impeachment evidence favorable to Petitioner’s
defense violated due process.
VI. Based on newly discovered evidence, there was insufficient
evidence to sustain Petitioner’s convictions for felony-murder and
assault with intent to rob while armed.
VII. Habeas issues V & VI were not raised during Petitioner’s direct
appeal because he had ineffective assistance of counsel.
II. Standard of Review
28 U.S.C. § 2254(d), as amended by The Antiterrorism and Effective Death
Penalty Act of 1996 (AEDPA), imposes the following standard of review for
habeas cases:
An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be
granted with respect to any claim that was adjudicated on the merits
in State court proceedings unless the adjudication of the claim(1)
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2)
resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
4

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1194

Page 5 of 17

A decision of a state court is “contrary to” clearly established federal law if
the state court arrives at a conclusion opposite to that reached by the Supreme
Court on a question of law or if the state court decides a case differently than the
Supreme Court has on a set of materially indistinguishable facts. Williams v.
Taylor, 529 U.S. 362, 405-06 (2000). An “unreasonable application” occurs
when “a state court decision unreasonably applies the law of [the Supreme
Court] to the facts of a prisoner’s case.” Id. at 409. A federal habeas court may
not “issue the writ simply because that court concludes in its independent
judgment that the relevant state-court decision applied clearly established
federal law erroneously or incorrectly.” Id. at 410-11. “[A] state court’s
determination that a claim lacks merit precludes federal habeas relief so long as
‘fairminded jurists could disagree’ on the correctness of the state court’s
decision.” Harrington v. Richter, 562 U.S. 86, 101 (2011 )(citing Yarborough v.
Alvarado, 541 U.S. 652, 664 (2004)).
III. Discussion
A. The Court grants petitioner's motion to withdraw claims # Five
and Seven.
In his reply brief, petitioner concedes that his fifth claim alleging a violation
of Brady v. Maryland, 373 U.S. 83 (1963) appears to be without merit and
“surrenders on this claim and will not further waste the Court’s attention on it.”

5

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1195

Page 6 of 17

Doc. 42, PG ID 1186. Petitioner also concedes that his ineffective assistance of
appellate counsel claim is without merit. Id. Doc. 42, Pg ID 1187.
A habeas petitioner can withdraw a claim from a habeas petition as long
as he or she does so knowingly, voluntarily, and intelligently. Daniel v. Palmer,
719 F. Supp. 2d 817, 828 (E.D. Mich. 2010); rev’d on other grds sub nom. Daniel
v. Curtin, 499 F. App’x. 400 (6th Cir. 2012). The Court permits petitioner to
withdraw his fifth and seventh claims.
B. The statute of limitations/procedural default issue.
Respondent argued that petitioner’s fifth, sixth, and seventh claims were
barred by the statute of limitations and also procedurally defaulted. Petitioner
has withdrawn his fifth and seventh claims but not his sixth claim alleging newly
discovered evidence of actual innocence.
Although the issue of whether a claim is procedurally barred should
ordinarily be resolved first, “judicial economy sometimes dictates reaching the
merits [of a claim or claims] if the merits are easily resolvable against a petitioner
while the procedural bar issues are complicated.” Barrett v. Acevedo, 169 F. 3d
1155, 1162 (8th Cir. 1999)(internal citations omitted). Because the statute of
limitations does not constitute a jurisdictional bar to habeas review, a federal
court, can, in the interest of judicial economy, proceed to the merits of a habeas
petition. See Smith v. State of Ohio Dept, of Rehabilitation, 463 F. 3d 426, 429,
n. 2 (6th Cir. 2006). Procedural default is likewise not a jurisdictional bar to
6

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1196

Page 7 of 17

review of a habeas petition the merits. See Trest v. Cain, 522 U.S. 87, 89
(1997). This Court believes that it would be easier to address the merits of
petitioner's sixth claim.
C. Claim # 3. The extraneous influence claim.
Petitioner first argues that the trial judge erred in denying his motion for an
evidentiary hearing or a new trial based on an allegation of extraneous influence
on the jurors. Subsequent to the verdict, but prior to sentencing, a juror
contacted defense counsel and indicated that he had changed his vote from not
guilty to guilty based on discussions the jurors had over the sentence that
petitioner would likely receive if he were convicted.
In Remmerv. United States, 347 U.S. 227, 230 (1954), the Supreme
Court held that a trial court confronted with an allegation of external tampering or
contact with a juror during a trial about a matter pending before the jury “should
determine the circumstances, the impact [of the contact] upon the juror, and
whether or not it was prejudicial, in a hearing with all interested parties permitted
to participate.” Remmer placed the burden on the prosecution to rebut the
presumption that an extrinsic influence upon the jury prejudiced the defense.
However, in Smith v. Phillips, 455 U.S. 209 (1982), the Supreme Court
subsequently stated,“This Court has long held that the remedy for allegations of
juror partiality is a hearing in which the defendant has the opportunity to prove
actual bias.” Id. at 215. In the aftermath of Smith v. Phillips, the Sixth Circuit
7

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1197

Page 8 of 17

“has consistently held that Smith v. Phillips reinterpreted Remmer to shift the
burden of showing bias to the defendant rather than placing a heavy burden on
the government to show that an unauthorized contact was harmless.” U.S. v.
Walker, 1 F. 3d 423, 431 (6th Cir. 1993)(collecting cases). A Remmer hearing is
thus not required unless the defendant can show that the unauthorized juror
contact “created actual juror bias.” United States v. Frost, 125 F. 3d 346, 377
(6th Cir. 1997).
To be entitled to a Remmer hearing, a defendant “must do more than
simply raise the possibility of bias.” Jackson v. Bradshaw, 681 F. 3d 753, 766
(6th Cir. 2012). Instead, a defendant “must make a colorable claim of
extraneous influence,” that is, “one derived from specific knowledge about or a
relationship with either the parties or their witnesses.” Id. “Examples of
extraneous influences include ‘prior business dealings with the defendant,
applying to work for the local district attorney, conducting an [out-of-court]
experiment, and discussing the trial with an employee.’” Id. (internal quotation
omitted). A trial court “should consider the content of the allegations, the
seriousness of the alleged misconduct or bias, and the credibility of the source
when determining whether a hearing is required.” Kowalak v. Scutt, 712 F. Supp.
2d 657, 692 (E.D. Mich. 2010)(quoting Sims v. Rowland, 414 F.3d 1148, 1155
(9th Cir. 2005)(internal quotation omitted)). To be entitled to a post-trial hearing
on an extraneous influence claim, a defendant must “come [ ] forward with clear,
8

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1198

Page 9 of 17

strong, substantial and incontrovertible evidence that a specific, non-speculative
impropriety has occurred.” Id. (internal quotation omitted).
Moreover, “[s]ince the trial judge is in the best position to determine the
nature and extent of alleged jury misconduct, his decision on the scope of
proceedings necessary to discover misconduct is reviewed only for an abuse of
discretion.” United States v. Rigsby, 45 F. 3d 120, 125 (6th Cir. 1995)(quoting
United States v. Shackelford, 111 F. 2d 1141, 1145 (6th Cir. 1985)). Finally, in a
habeas corpus case, a state court’s findings on whether, and how, an
extraneous matter affected jury deliberations “deserve[ ] a ‘high measure of
deference.’” Mahoney v. Vondergritt, 938 F. 2d 1490, 1492(1 st Cir.
1991 )(quoting Rushen v. Spain, 464 U.S. 114, 120 (1983)).
Petitioner is not entitled to habeas relief because he failed to show that the
jurors were subjected to an extraneous influence. The Michigan Court of
Appeals, in rejecting petitioner’s claim, People v. Smith, 2009 WL 3837414, at *
2, noted that there was no allegation that a party outside of the jury panel
.J('.

approached the jurors and provided them information about possible penalties.
A juror is incompetent to impeach his or her verdict, except as to
extraneous prejudicial information or outside influence. United States v.
Gonzales, 227 F.3d 520, 523-524 (6th Cir. 2000)(citing to Mattox v. United
States, 146 U.S. 140, 149 (1892)); F.R.E. 606(b). Juror discussions about
possible penalties that a defendant might receive are internal influences that
9

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1199

Page 10 of 17

cannot be used to impeach a jury verdict in the absence of allegations that the
jurors received this information about possible sentences from an outside
source. Gonzales, 227 F. 3d at 526. In the absence of any evidence that the
jurors received their information concerning possible sentences from an outside
source, there was no basis for the judge to conduct a Remmer hearing. Id.
Petitioner is not entitled to relief on his first claim.
D. Claim # 2. The readback of testimony claim.
Petitioner next argues that his right to a fair trial was violated when the
judge refused the jurors’ requests for the testimony of three witnesses to be read
back to them.
There is no federal constitutional law which requires that a jury be
provided with a witness’ testimony. See Bradley v. Birkett, 192 F. App’x. 468,
477 (6th Cir. 2006). The reason for this is that there is no U.S. Supreme Court
decision that requires judges to re-read testimony of witnesses or to provide
transcripts of their testimony to jurors upon their request. See Friday v. Straub,
175 F. Supp. 2d 933, 939 (E.D. Mich. 2001). A habeas petitioner’s claim that a
state trial court violated his or her right to a fair trial by refusing to grant a jury
request for transcripts is therefore not cognizable in a habeas proceeding.
Bradley, 192 F. App’x. at 477; Spalla v. Foltz, 615 F. Supp. 224, 233-34 (E.D.
Mich. 1985).

10

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1200

Page 11 of 17

Given the lack of holdings by the Supreme Court on the issue of whether a
state trial judge is required to re-read the testimony of witnesses or provide
transcripts of their testimony to jurors upon their request, the Michigan Court of
Appeals’ rejection of petitioner’s claim was not an unreasonable application of
clearly established federal law. See Wright v. Van Patten, 552 U.S. 120, 126
(2008); Carey v. Musladin, 549 U.S. 70, 77 ( 2006).
E. Claim # 3. The sufficiency of evidence claim.
Petitioner next contends that there was insufficient evidence to prove that
he was the person who murdered the complainant. The Michigan Court of
Appeals rejected the claim, finding that petitioner’s identity was established by
his confessions to two of the witnesses. People v. Smith, 2009 WL 3837414, at
*4.
It is beyond question that “the Due Process Clause protects the accused
against conviction except upon proof beyond a reasonable doubt of every fact
necessary to constitute the crime with which he is charged.” In Re Winship, 397
U.S. 358, 364 (1970). But the critical inquiry on review of the sufficiency of the
evidence to support a criminal conviction is, “whether the record evidence could
reasonably support a finding of guilt beyond a reasonable doubt.” Jackson v.
Virginia, 443 U.S. 307, 318 (1979). A court need not “ask itself whether it
believes that the evidence at the trial established guilt beyond a reasonable
doubt.” Instead, the relevant question is whether, after viewing the evidence in
11

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1201

Page 12 of 17

the light most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt. Id. at 31819 (internal citation and footnote omitted)(emphasis in the original).
A federal habeas court may not overturn a state court decision that rejects
a sufficiency of the evidence claim merely because the federal court disagrees
with the state court’s resolution of that claim. Instead, a federal court may grant
habeas relief only if the state court decision was an objectively unreasonable
application of the Jackson standard. See Cavazos v. Smith, 565 U.S. 1, 2
(2011). “Because rational people can sometimes disagree, the inevitable
consequence of this settled law is that judges will sometimes encounter
convictions that they believe to be mistaken, but that they must nonetheless
uphold.” Id.
Under Michigan law, “[T]he identity of a defendant as the perpetrator of
the crimes charged is an element of the offense and must be proved beyond a
reasonable doubt.” Byrdv. Tessmer, 82 F. App’x. 147, 150 (6th Cir. 2003)(citing
People v. Turrell, 25 Mich. App. 646, 181 N.W.2d 655, 656 (1970)).
“[A]n admission by the accused identifying himself (or herself) as the
person involved in the (crime) is sufficient to sustain a guilty verdict when the
crime itself is shown by independent evidence.” United States v. Opdahl, 610 F.
2d 490, 494 (8th Cir. 1979); See Johnson v. Coyle, 200 F.3d 987, 992 (6th Cir.
2000)(petitioner’s identity as murderer supported in part by evidence that he
12

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1202

Page 13 of 17

confessed several times to murdering sister); Sok v. Romanowski, 619 F. Supp.
2d 334, 351 (W.D. Mich. 2008)(evidence sufficient to establish petitioner’s
identity as armed robber where his admissions placed him at the location of the
crime); Hatchett v. Withrow, 185 F. Supp. 2d 753, 759 (E.D. Mich.
2002)(petitioner’s identity as perpetrator of crime supported in part by his
detailed confession to the crime).
To the extent that petitioner challenges the credibility of the prosecution
witnesses, he would not be entitled to relief. Attacks on witness credibility are
simply challenges to the quality of the prosecution’s evidence, and not to the
sufficiency of the evidence. Martin v. Mitchell, 280 F. 3d 594, 618 (6th Cir. 2002).
An assessment of the credibility of witnesses is generally beyond the scope of
federal habeas review of sufficiency of evidence claims. Gall v. Parker, 231 F. 3d
265, 286 (6th Cir. 2000). The mere existence of sufficient evidence to convict
therefore defeats a petitioner’s claim. Id. Any insufficiency of evidence claim that
rests on an allegation of the witnesses’ credibility, which is the province of the
finder of fact, does not entitle a habeas petitioner to relief. See Tyler v. Mitchell,
416 F. 3d 500, 505 (6th Cir. 2005). Petitioner is not entitled to relief on his third
claim.
F. Claim # 4. The jury being allowed to ask questions.
Petitioner alleges that the trial court abused its discretion when it permitted
the jurors to submit questions to the witnesses.
13

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1203

Page 14 of 17

Federal courts hold it is a matter of discretion to allow questions by jurors
in federal criminal trials. See discussion in United States v. Collins, 226 F.3d
457, 461 (6th Cir. 2000). There are no cases which indicate that questions by
jurors implicate a specific constitutional guarantee. There is no clearly
established federal law, as determined by the Supreme Court of the United
States, that holds that juror questioning of witnesses violates the Sixth or
Fourteenth Amendments. Mendoza v. Berghuis, 544 F.3d 650, 655-56 (6th Cir.
2008). See Slaughter v. Parker, 450 F.3d 224, 236 (6th Cir. 2006)(no Supreme
Court precedent holds that juror questioning of witnesses violates the Sixth or
Fourteenth Amendments). Furthermore, “allowing jurors to ask questions during
criminal trials is permissible and best left to the discretion of the trial judge.”
United States v. Collins, Id. Juror questions are reviewed on habeas review for
a violation of due process. See Wheeler v. Jones, 59 F. App’x. 23, 30 (6th Cir.
2003)(internal citation omitted).
Petitioner has not established that any of the juror questions were
prejudicial or violated his right to due process. Petitioner is not entitled to
habeas relief on his fourth claim.
G. Claim # 6. The actual innocence claim.
Petitioner in his sixth claim argues that he is entitled to a writ of habeas
corpus because he is actually innocent of the crime. Petitioner’s actual
innocence claim is based on the affidavit of Robert Evans, signed on October
14

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1204

Page 15 of 17

11, 2012 and attached as Exhibit A to petitioner’s 2013 motion for relief from
judgment. See Doc. 41-3, Pg ID 1046. Mr. Evans claims that on February 17,
2008, he had a discussion with his sister Latoya Evans and her boyfriend
Shayne Dennis, the two prosecution witnesses who testified that petitioner
confessed to murdering the complainant. Mr. Evans avers that his sister and Mr.
Dennis told him that the police were looking for petitioner and that the two had
inquired whether there was a reward. Mr. Evans claims that his sister and Mr.
Dennis had said that petitioner had told them nothing about the crime other than
that the police wanted to speak with him. Mr. Evans claims “They then said fuck
him, because they would figure out how to get that money if they could.” Mr.
Evans alleges that his sister and her boyfriend fabricated petitioner’s
confessions to them so that they could get the reward money.
Mr. Evans’ proposed testimony could be used at most to impeach the
credibility of his sister and Mr. Dennis. Impeachment evidence does not provide
sufficient evidence of actual innocence to support a free-standing innocence
claim. See Calderon v. Thompson, 523 U.S. 538, 563 (1998)(newly discovered
impeachment evidence, which is “a step removed from evidence pertaining to
the crime itself,” “provides no basis for finding” actual innocence); Sawyer v.
Whitley, 505 U.S. 333, 349 (1992) (newly discovered impeachment evidence
“will seldom, if ever,” establish actual innocence). Petitioner is not entitled to
relief on his sixth claim.
15

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1205

Page 16 of 17

H. A certificate of appealability.
A habeas petitioner must receive a certificate of appealability (“COA”) in
order to appeal the denial of a habeas petition for relief from either a state or
federal conviction.2 28 U.S.C. §§ 2253(c)(1)(A), (B). A court may issue a COA
“only if the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). When a federal district court rejects
a habeas claim on the merits, the substantial showing threshold is met if the
petitioner demonstrates that reasonable jurists would find the district court's
assessment of the constitutional claim debatable or wrong. See Slack v.
McDaniel, 529 U.S. 473, 484-85 (2000). “A petitioner satisfies this standard by
demonstrating that... jurists could conclude the issues presented are adequate
to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S.
322, 327 (2003). In applying this standard, a district court may not conduct a full
merits review, but must limit its examination to a threshold inquiry into the
underlying merit of the petitioner's claims. Id. at 336-37.
The Court concludes that jurists of reason would find its assessment of the
constitutional claims debatable or wrong. See Slack, 529 U.S. at 484-85. Any

2 Effective December 1, 2009, the newly created Rule 11 of the Rules
Governing Section 2254 Cases in the United States District Courts, 28 U.S.C. foil.
§ 2254, provides that “[t]he district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” Rule 11(a) 28
U.S.C. foil. § 2254.
16

Case 2:ll-cv-10261-AJT-MKM ECF No. 43 filed 06/12/18

PagelD.1206

Page 17 of 17

doubt regarding whether to grant a COA is resolved in favor of the habeas
petitioner, and the severity of the penalty may be considered in making that
determination. See Newton v. Dretke, 371 F. 3d 250, 253 (5th Cir. 2004). Any
doubts regarding the issuance of a COA in this case should be resolved in
petitioner’s favor, in light of the nonparolable life sentence that he is serving.
The Court issues petitioner a COA. Petitioner is also granted leave to proceed
on appeal in forma pauperis, as any appeal would be in good faith. See 28
U.S.C. § 1915(a)(3); Fed. R.App.24 (a); Foster v. Ludwick, 208 F. Supp. 2d 750,
765 (E.D. Mich. 2002).
IV. CONCLUSION
For the reasons stated above, this Court concludes that Petitioner Smith is
not entitled to federal-habeas relief on the claims presented in his petition.
Accordingly, IT IS ORDERED that the petition for writ of habeas corpus is
DENIED WITH PREJUDICE. (Dkts. # 1, 38). The Court issues petitioner a
certificate of appealability and leave to proceed on appeal in forma pauperis.
s/Arthur J. Tarnow
HON. ARTHUR J. TARNOW
SENIOR UNITED STATES DISTRICT JUDGE
Dated: June 12, 2018

17

Case 2:ll-cv-10261-AJT-MKM ECF No. 44 filed 06/12/18

PagelD.1207

Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
KEITH BERNARD SMITH,
Petitioner,
v.

Civil No. 2:11-CV-10261
HONORABLE ARTHUR J. TARNOW
UNITED STATES DISTRICT JUDGE

KEVIN LINDSEY
Respondent,
JUDGMENT
The above entitled matter having come before the Court on a Petition for
Writ of Habeas Corpus and in accordance with the Memorandum Opinion and
Order entered on June 12, 2018.
IT IS ORDERED AND ADJUDGED that:
(1) the Petition for Writ of Habeas Corpus is DENIED WITH
PREJUDICE.
(2) A Certificate of Appealability is GRANTED.
(3) Petitioner is GRANTED Leave to Appeal In Forma Pauperis.

DAVID J. WEAVER
CLERK OF THE COURT
APPROVED:
s/Arthur J. Tarnow
HON. ARTHUR J. TARNOW
SENIOR UNITED STATES DISTRICT JUDGE

BY: s/C. Pickles
DEPUTY CLERK

